i

i

*

u
No.

i

i

70

X
IN THE

Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

JUN 2 2 2020
OFFICE OF THE CLERK

JON MYERS, PETIONER

v.

SONDRA MYERS and others

On PETION FOR A WRIT OF CERTIORAIR TO THE SUPREME JUDICIAL
COURT OF MASSACHUSETTS FROM A MOTION TO DEFINE AND STOP AN
EVIL CASE OF EMOTIONAL ABUSE AND FOR RELIEF THEREOF

PETITON FOR A WRIT OF CERTIORARI

Jon Myers, Pro Se Petitioner
209 Riverview Avenue #35
Auburndale, MA 02466
(617) 899-0383
ion@calminterventions.com
For the Respondents:
Michael R. Perry, Esq.
Hunton, Andrews and Kurth
60 State Street, Suite 2400
Boston, MA 02109

QUESTIONS PRESENTED
1. When the Massachusetts Appeals Court acknowledged potentially in a
skeptical manner that Myers’s story was a “Biblical level story” and the
degree of evil was leaving a “humongous stain on the universe” was it rubberstamping a failing on the part of courts to ascertain the degree of
destructiveness in Myers’s familial situation, and due to its gravity the
mindset of the entire United States of America? Was indeed, a perfect storm
of evil engendered, which is truly of one of a kind Biblical proportions, both in
terms of the calamity of the occurrence, and the opportunity for an equal and
- opposite reaction to occur?

2. Like the Wright Brothers in their creation of a flying machine; is Myers
bringing forth a vital understanding of the Tort for the Intentional Infliction
of Emotional Distress, the horror of emotional/psychological abuse, and how
such dynamics are profoundly at root in challenging modern day America?

3. In that Myers’ advocacy and the legal history of this case has unfolded over a
twenty-four-year period, does Myers point to potentially corrupt practices of
our divorce system in particular, and the gulf between American ideals of
“liberty and justice for all;” and the current state of our legal system in
America? Is this all shown through Myers’ inspiring, if imperfect journey?

i

LIST OF PARTIES
The petitioner is Jon Myers, Pro Se, of Auburndale, Massachusetts.
Respondents are Myers’s biological parents, Sondra and Morey Myers of 1121
Myrtle Street Scranton, PA 18510. Margaret Carney (deceased February 2,
2016) was a respondent at the time of the original action(s). Michael R. Perry,
of Hunton, Andrews and Furth of 60 State Street, Suite 2400 Boston, MA
02109 is Counsel for the Respondents.

DIRECTLY RELATED PROCEEDINGS
• Myers v. Sondra Myers and others, FAR-27157, Massachusetts Supreme
Judicial Court. Reconsideration DENIED. January 24, 2020
* Myers v. Sondra Myers and others, FAR-27157 Massachusetts Supreme
Judicial Court. DENIED. December 23, 2019.
• Myers v. Sondra Myers and others, 18-P-1623 Massachusetts Appeals
Court, Judgment entered October 25, 2019
* Jon Myers v. Sondra Myers and others, 2012-01904 Motion to “Define and
stop and evil case of Emotional Abuse and for relief thereof.” Middlesex
Superior Court. DENIED April 13, 2018.
* Jon Myers v. Sondra Myers and others 2012-01904 Complaint for the
Intentional Infliction of Emotional Distress. Motion for Dismissal
ALOWED with Prejudice on November 9, 2012.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES...............

11

DIRECTLY RELATED PROCEEDINGS

ii

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

IV

DATE OF JUDGMENT
REASONS FOR GRANTING THE PETITION

••

iv

1-40

STATEMENT OF THE CASE

1

STATEMENT OF JURISDICTION

4

INTRODUCTION

8

THE BIBLICALLLY SHOCKING ELEMENT

11

THE EMOTIONAL ASSAULT

12

DISCUSSION OF THE TORT FOR THE INTENTIONAL
INFLICTION OF EMOTIONAL DISTRESS

15,

THE COMPASSIONATE GENIUS MYERS OFFERS FOR THE TORT
FOR THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS
AND SOCIETY,
17
ADDING DEPTH TO THE TORT FOR THE INTENTIONAL
INFLICTION OF EMOTIONAL DISTRESS................................
THE EMOTIONAL BACKDROP TO MYERS’ SITUATION
THE PERFECT STORM

19
23
30

THE CAUSE FOR INTERVENTION OF THE UNITED STATES SUPREME
COURT
34
THE CASE FOR DECENCY: HOW THIS SITUATION SAVES THE
AMERICAN MINDSET: A BIBLICAL LEVEL STORY.......................

37

CONCLUSION

39
iii

PRIMARY APPENDIX—REGENT MASSACHUSETTS DECISIONS

1

SUPPLEMENTAL APPENDIX—TWENTY FOUR YEAR LEGAL HISTORYVITAL TO UNDERSTANDING THIS MATTER
6

TABLE OF AUTHORITIES
Agis v. Howard Johnson 371 Mass. 140 (1976)

Pages 9

Bradshaw v. General Motors. 805 F.2d 110* 114 (3rd Cir. 1986)
George v. Jordan Marsh. 359 Mass. 244, 251 (1971)

Page 16

.....Page 10

Pierce v. Penman. 357 Super. 225,236, 515 A.2d, 948^853 (1986)... .Page 16

State Rubbish Collectors Ass’n v. Siliznoff 38 Cal 2d 330, 338-339
(1952)....... :........................................................... ............................. Page 10
Sammsv. Eccles. 11 Utah 2d, 289. 291 (1961)

Page 10

Sorenson v. Sorenson 369 Mass. 350, 364 (1975).

Page 10

The Tort for the Intentional Infliction of Emotional Distress........Pages 9, 10, 12
Williams v. Guzzardi 875 F. 2d 46, The Third Circuit Court of Appeals... Page 15

DATE JUDGMENT ENTERED
January 24, 2020, Reconsideration Denied—Massachusetts Supreme Judicial Court
June 24, 2020 Petition for Writ of Certiorari-Originally filed.
July 9, 2020, letter from Redmond K. Barnes, Supreme Court allowing sixty days
for correction of Petition,

iv

STATEMENT OF THE CASE
It is imperative to see this case, as a function of a twenty-four
legal pattern of behavior and a thirty-two-year pattern of behavior.
Emotional/psychological abuse is a horrific form of human behavior,
which can unfold, virtually indefinitely over decades of time. To not
understand that Myers is averring that he has been subjected to an
unprecedented pattern of vile behavior, over decades, is to miss the
forest for the trees. While there are innumerable legal decisions, most of
which Myers has been on the short end; the constant is Myers’s
patience and perseverance to overcome an insufferable situation.
The insufferable situation is caused by an unfathomable perfect
storm of characters emanating from Myers’s family of origin, mixed in
severe challenges in our American court system, partially, although not
totally centered in our divorce and family court system. It is only the
perfect storm, the astounding coalescence of vast numbers of Myers
family, direct and extended; with our legal system that makes this a
case worthy of consideration of the august Supreme Court. It is a
happenstance of Biblical proportions and Myers believes once in a
millennium. Unprecedented would be a family raising Myers, in such a
1

concerted way, in the square blocks of Scranton, PA, and then so
maliciously betray him.
Related are the legal horrors of our divorce and family court
system. This is not a random set of events. This is a case of a person,
thrown in the malicious parts of American life, and Myers refusing to
accept anything less than dignity, fairness, and justice, which all
Americans deserve. Myers envisions a massive hole created in the
fabric of American culture by his family and courts. In a loving sense,
not only does Myers request justice, he seeks to improve the process as
well.
The immediate matters of the case relate back to 2012 case
entered by Myers, 2012-01904 in Middlesex Superior Court addressing
emotional abuse and the Tort for the Intentional Infliction of Emotional
Distress. That matter was “settled” in coercive fashion, with Myers
choosing a minimalistic life-saving “settlement,” to get his head
emotionally and financially above water, so severe had been the
damage. Given as this Petition will detail, the thoroughly abusive
pattern of behavior Myers has consistently worked for fairness,

2

particularly given the way he was raised, and his parents publicly
purporting all kinds of benevolence, democracy, and civil rights.
In 2018 Myers formally moved to re-open the case, with a Motion to
Define an evil pattern of behavior. Myers presented these three facts as
the tip of the iceberg:
1. Myers’s ex-wife Carney had died in 2016.
2. Myers has not to this day, seen his son Samuel since March 16,
2012 and his daughter Sophia twice since that time.
3. Myers is a loving and able father, who was well-known in the city
of Cambridge, MA as a City Councillor, director and Executive
Director of programs for teens and racially and economically
diverse youth.
We are talking with being with one’s own children, again, the tip of
the iceberg of an extreme and outrageous pattern of behavior. Myers’s
motion was Denied by the Middlesex County Superior Court as was the
Motion for Reconsideration. Myers appealed and the Massachusetts
Appeals Court defined the appeal on September 18, 2019. Myers sought
FAR from the Massachusetts Supreme Judicial Court, which was
denied on December 23, 2019. Myers has filed a Motion to supplement
3

his Petition, which the MA SJC treated as a Motion for Reconsideration,
and that Motion was denied on January 24, 2020.
It is not the singularity of anyone decision, on which Myers
approaches this Honorable Court. It is the degradation and
diminishment of basic American rights in appalling fashion, as well as
the concomitant emotional distress engendered in the process which
Myers resists. Not only does Myers believe that this is an
unfathomable vicious turn on the part of a family; both Myers pointing
out the need for repair of the American mindset and system, as well as
pointing a light himself, make this a case worthy of adjudication and
favor at the highest levels of our American legal system.
STATEMENT OF JURISDICTION
Our dear America is at a crossroads, even beyond what the
political process will produce this year. The fabric of our cherished
ideals is ripped and threatened to be torn apart at the seams. Myers’s
twenty-four-year saga is an amazing opportunity for the Supreme Court
to ascertain and remedy the spiritual virus in America. If what
happened to Myers can occur and did; then American ideals could be
dying.
4

- It is that spirit of improvement for his children, his own life
and society that serves as the core not merely of the travesty that
has affected Myers, but of his equal and opposite twenty-four-year
drive for fairness and remedy. Worse than the challenges of
American courts are only the actions of Myers’s family, in name
here in the way of the biological parents. It is time for justice and
fairness to replace travesty and corruptive actions in American
courts, and if we do not begin with the Supreme Court, then where
else?
The jurisdiction of the Supreme Court is that there is wretched
virus at play in American society and most definitely in the legal
system. This virus is a horror, because of the great gulf that has
developed between American ideals of “liberty, justice for all;” and
“life, liberty and the pursuit of happiness;” and the practice of law
in our society. Myers speaks a witness and survivor of twenty-four
plus years of legal horror. There are two birds figuratively that
the Supreme Court can kill, with one stone, as Myers has done
twenty-four year amounting to genius level work. One is the

5

disease of mindset in the American culture, represented by his
biological parents, and family. Two is the virus in our American
legal system. Myers should not have survived what he went
through. More than merely surviving; Myers poses remedy.
Driven by his parents, in Massachusetts courts; Myers’s
fourteenth amendment rights of "life, liberty and property" have
been eviscerated in even evil ways. Fathom, losing your familial
legal rights, parenting status, place in home community, virtually
all based on nothing more than a he, or group animus. While,
Myers seems singular, he does not know everything, but knows
that he represents many others, who have lost their way, rights,
and privileges because they were not able to speak up. As
“rambling” for instance as the Trial Judge called Myers’s 2018
Superior Court filing; it is the true testament of someone who
would not give up his voice, no matter how heavy a legal beating
Myers was taking; no matter how destructive the emotional abuse
and thereby emotional distress, Myers refused to give up.

6

Myers’s Petition is a petition for the common person* the
underdog, for any and everyone suffering the pangs of abuse and
unfairness. At a time when unrest challenges our country, and
voices demand equality; in a calmer and quieter way, Myers has
identified holes in the American fabric. Consistent with American
legal principles of liberty and justice for all, Myers seeks fairness
for himself and society. It is not only the opportunity for.the
Supreme Court to approve the fairness Myers seeks; it is
respectfully speaking, its responsibility on behalf of America.

In that, on some level, Myers has chosen, in part to make a
case study of this Petition, his aim is for the Supreme Court to
consider this Petition on the totality of the actions towards one
person, and the toll it would take. Myers respectfully avers that
the emotional distress is that of a degree that could kill a person
on more than one occasion. Even though emotional/psychological
abuse unfolds over years and decades, rather than necessarily a
sudden action, it can then take the worst of human behavior and
deliver it in excruciating slow-motion fashion. One can amplify by
7

a 100 or even 1000, the concept of the Tort for the Intentional
Infliction of Emotional Distress: “Utterly intolerable in a civilized
community.”
This concept is compounded by the sense that the biological
parents promote themselves prominently as purveyors of the
common good. To potentially influence so many, and to hide an
enormous lie under their surface, not only hurts the specific parts.
Such a he and harm it creates to so many injures America.
Finally, the elevation of the Tort for the Intentional
Infliction of Emotional Distress is crucial for society. This Tort is
misunderstood. Myers has done a ton of background work to
exhibit, why it must be well understood. In all matters, Myers
seeks restoration, peace, and improvement as is possible.

REASONS FOR ALLOWING THE WRIT
INTRODUCTION
Let us begin with of all things, a Dr. Seuss analogy, in a book Myers shared
with his children and kindergartners in Cambridge, MA: “The 500 hats of
Bartholomew Cubbins.” Our hero Bartholomew watched a long procession of the
King. The King’s men yelled: “Take off your hat.” Bartholomew did, and soon
8

appeared an identical red cap on his head. The King backed up his entourage of
camels, guards, horses, the whole nine yards, and confronted innocent
Bartholomew. Every time, Bartholomew removed his hat, another hat popped up in
its place.
The King would have none of it and whisked poor Bartholomew off to the
Palace. Through absurd episodes of wise men, archers and even an executioner, the
hats cannot be stopped. As the numbers of hats reaches a crescendo, and
Bartholomew is about to be pushed off the tower by the King’s evil nephew, the hats
magically transform. Hat 496 or so, the hats become prettier. Suddenly, hat 500 is
this beautiful La Plume and the King exclaims: “I must have that hat.” The King
spares Bartholomew, and indeed pays 10,000 gold coins for the hat and dear
Bartholomew lives happily ever after. With the final word from Seuss, along the
fines: “Nobody could figure out how it happened, it just happened to happen.”
Myers shares, a Bartholomew Cubbins resemblance for this situation. A
fantastical thing has happened to happen. Myers was born in Scranton, PA in 1958,
at a time when Scranton was its own culture. Within a six-block area, resided
Myers’ four grandparents, a doctor, and a lawyer first generation immigrants and
two grandmothers, who lived over 100 years, often right next to each other. Myers’
parents Morey and Sondra Myers, unfathomably the Defendants in this action (“the
parents”) raised Myers and his younger brother David Nathan Myers (“Nathan
Myers”) in a relatively upright manner, although Myers was plunged into things
like NE Pennsylvania football culture, chess tournaments, basketball and more,
9

with skill. Within those six blocks were James Madison elementary school and
Temple Israel: homes away from home for Myers.
The family mantra was “blood ain’t mud;” and while surely not a perfect
family, the guidelines of societal achievement and compassion were prominent. The
parents, ran a strict home, encompassed by a sense of togetherness, as virtually all
meals were family events. Breakfast featured good food, stories, and math quizzes;
lunches, Myers and Nathan Myers would walk home from school, and dinner
uniformly presented around 6:20 p:m.
The parents attended many of Myers’s sporting events, football games,
basketball, and chess tournaments in NYC. Myers was even selected for a USA
basketball team that went to Lima, Peru and the parents were one of the few
parents that attended. The closeness was unquestioned, at least in a general sense
by Myers, and other than appropriate boyhood squabbles, there was little evident
strife in the family.
What was a sense of benevolence imploded in 1988, on an emotionally,
nuclear level. Three events underscored, if not catalyzed what Myers describes, as
an emotional asteroid hitting earth. One was that Myers and this then wife
Margaret Carney (“Carney”) separated temporarily, second was that Nathan Myers
wantonly intervened in Myers’ life from 3000 miles away, to make ludicrous mental
health and general life allegations. Third, Myers’s maternal grandfather Morris B.
Gelb died, leaving an estate of approximately $10 million. On the estate tax forms,

10

the parents, and others, guided by Attorney Richard S. Bishop (“Bishop”) of
Scranton, declared $2.1 million to the IRS.

THE BIBLICALLY SHOCKING LEVEL
Perhaps Dr. Seuss, is a wonderful place to begin, because, everything in this
situation, defies human logic. While many facets of today’s world, pose, an Alice inWonderland up is down, down is up quality; Myers avers respectfully that this
situation takes the cake. Sadly, the areas in which, it takes the cake, include but
are not limited to are: Emotional cruelty, hatred, and vicious irrationality.
It is worthy to interject that Myers’s full given name is Jonathan and his younger
brother’s David; drawn from the Bible. The Biblical analogy is reinforced because
one of the key elements in terms of a proper understanding of this situation is the
unfathomable irrational rage directed at Myers. Ironically, this rage is embodied in
Nathan Myers, who preaches to others about the Bible. The degree of hatred
directed at Myers is in Myers’s view astronomical, and virtually zero basis in
mature adult rational understanding, akin to a lesson from the Bible.
Essentially what Myers is describing, to describe the “indescribable”1 is the
notion of a huge perhaps twenty-foot emotional dagger directed at Myers and his
personal space in unrelenting fashion, over the past thirty-two years. It is, rage, the
likes of which go back to human beginnings, identified, and quantified by Myers in
1 Indescribable is a word from Myers’s daughter Sophie’s seminal 2007 college entrance essay on
their familial situation, Myers’s heroic role, and the “indescribable” feelings of fear and anxiety
brought on by the vicious and irrational custody battle, brought on by Carney with the lull support of
the biological parents, Nathan Myers and Stolzenberg.
11

this case. Understanding emotional abuse, gets at the core of understanding the
concept of hatred in our society.

THE EMOTIONAL ASSAULT
1, Myers finds the circumstances of this situation Biblical because it would be
hard to find a situation in the entire world, as emotionally destructive as this
one, for the following reasons AND for that matter with the capacity to draw
vital societal lessons:
A. The emotional assault on Myers’s life began in September 1988 and
has not subsided since.
B. The first tool of emotional assault has to do with attempting to
viciously define or defame its target. Key is a false sense of
superiority of the person(s) targeting another. The very worst
instances of human horror, such as the Holocaust and American
slavery were based on a false sense of superiority. In whatever form,
false superiority becomes the most wicked of weapons, masking that
the perpetrators, at least in a moral sense, are developmentally
feeling inferior, while posing as superior, as jealousy and fear can
become enormous fountains of animus and rage.
C. In the beginning, 1988, Nathan Myers appeared randomly in Myers’s
life from 3000 miles away, and with virtually zero positive
interaction heinously attempted, to define Myers’s life. At that
moment, Myers was experiencing a temporary separation from his
12

ex-wife, the now late Carney. Myers had just run in his first
Cambridge City Council election, doing well, and narrowly missing,
before winning the next three times. In volatile form, Nathan Myers
started assailing Myers with the sense that there was something
wrong with Myers. The parents came with Nathan Myers, to a
therapist who, Myers was seeing briefly due to the separation, and
discredited Nathan Myers fully, the next morning. Rationally
speaking, end of story, biblically speaking, welcome to the next
thirty-two years of life. Nathan Myers was taking an emotionally
disconnected sense of childhood rage and directing it at Myers.
D. The pattern of hatred and animus directed at Myers for the next
thirty-two years became unending, intensifying, and thoroughly based
in irrationality, producing real world results including, but not limited
to:
1. Being defamed by Nathan Myers and the entire family since
September 1988.
2. Being ostracized to the point, where Myers has not set foot in the
home, in which he grew up, in eighteen years. On that occasion,
within a thirty-six-hour window, Myers had his car window
smashed, was physically assaulted by Nathan Myers, and mocked
for not reciprocating.2

2 Indeed, as Myers went outside to cool off, a friendly police officer was there, and on an unrelated
matter, and offered to go in an confront Nathan Myers, which at the time, Myers declined.
13

3. Carney was used as a complete legal weapon against Myers,
beginning in 1996. With the parents, siding firmly with Carney
for fabricated reasons, Myers and his two sacred children Sophia
Rose Myers (DOB 3/17/90 “Sophie”) and Samuel Morris Myers
(DOB 5/22/93 “Sam”) were put through eleven years of non-stop
separation, divorce, custody and post-custody litigation, in the
most challenging of family courts, Middlesex County,
Massachusetts. The lack of logic for the alliance with Carney will
strain the reasoned reader; items such as the deceit on Gelb’s
estate, hatred towards Myers, and a despicable need to appear
important, begin to explain the otherwise inexplainable or
“indescribable.”
4. Financial destruction, based On the removal of reason from the
familial backdrop, and the replacement of reason, with wanton
vengeance. Such vengeance has assaulted Myers, at his core, and
caused him to choose to respond appropriately legally, while
stretching him amazingly financially. 3
5. Engaging in ceaseless actions aimed to separate Myers from
Sophie and Sam, through separation tactics, as well as pernicious
alienation actions, compounding abuse to Sophie and Sam, and

3 Myers see himself as being victimized, not as a victim. Myer through his life and work, now sees
himself as having the capacity to develop a billion-dollar business, geared to helping the world
improve, if not healing.
14

emotional distress to Myers. Myers has seen Sam not at all in
over eight years, and Sophie twice during that time. Indeed, it is
the behavior with respect to Sophie and Sam, that elevates this
matter to the full level of evil.

6. Before, moving to a discussion of the depravity of the mindset

that could produce such actions, it would be useful to present a
discussion of the Tort For the Intentional Infliction of Emotional
Distress, current practice, how it'applies here, and why it is key
for society today. All of this is occurring while Carney is dragging
Myers through one vindictive legal action after another.

DISCUSSION OF THE TORT FOR THE
INTENTIONAL INFLICTION OF EMOTIONAL
DISTRESS
Ironically, Massachusetts case law itself, has two elements pertaining to the
Tort for the Intentional Infliction of Emotional Distress, raised by Myers in his
Appellate briefs, that are vital and relevant here.
1. No bodily harm is necessary for a finding of the Intentional Infliction of
Emotional Distress. In Agis v. Howard Johnson 371 Mass. 140 (1976):
“There has been a concern that mental anguish standing alone is too
subtle and speculative to be measured by any known legal standard,”
that’s mental anguish and its consequences are so intangible and peculiar
and vary so much with the individual that they cannot be reasonably
15

anticipated and that there can be no objective measure of emotional
distress.
...While we are not unconcerned with these problems, we do believe that
the problems presented are not. . . insuperable and that administrative
difficulties do not justify the denial of relief for serious invasions of mental
and emotional tranquility...” State Rubbish Collectors Ass’n v. Siliznoff.
38 Cal 2d 330. 338-339 (1952).
Agis, further: “That some claims may. be spurious should not compel those
who administer justice to shut their eyes to serious wrongs {emphasis
added} and let them go without being brought to account. It is the
function of courts to determine whether claims are valid or false. This
responsibility should not be Shunned just because the task may be
difficult to perform.” Samms v. Eccles, 11 Utah 2d 289. 291 (1961). See
George v. Jordan Marsh Co.. 359 Mass. 244, 251 (1971). See also Sorenson
v. Sorenson. 369 Mass. 350, 364 (1975).
In Agis, the Massachusetts Supreme Judicial Court is establishing key
principles regarding the Tort for the Intentional Infliction of Emotional
Distress, including, but not limited to: No bodily harm is required to establish
emotional distress; that it is the role of Courts, no matter how challenging to
discover that emotional harm and or “mental anguish. Then comes a
fascinating concept regarding the Tort for the Intentional Infliction of
Emotional Distress:
“The Jury is ordinarily in a better position...to determine whether
outrageous conduct results in mental distress than whether that mental
distress results in physical injury. From their own experience jurors are
aware of the extent and character of the disagreeable emotions that may
result from the defendant’s conduct...”
Bingo. The Massachusetts Supreme Judicial Court is establishing a key
principle regarding the Tort that jurors can determine what is emotional
distress based on their own experiences. It does not take a legal wizard, a
16

great expert; to recognize emotional distress, a jury, comprised of a cross
section of ones’ peers, can make this determination. It is akin to the standard
of the Restatement of the Tort, section D,” “that an average member
{emphasis added, aside from the discussion of “average”} of the community
will be so moved so as to exclaim: “Outrageous!”

THE COMPASSIONATE GENIUS MYERS OFFERS
REGARDING THE TORT FOR THE INTENTIONAL
INFLICTION OF EMOTINAL DISTRESS AND SOCIETY
There is a wonderful synchronicity to Myers’ life on a few levels in this
situation: 1) The entire notion of finding one’s inner strength. This situation
unfolding over a thirty-two year period, has provided an unfathomable sense
of adversity, and in the spirit of challenge being opportunity; opportunity for
Myers to find who he truly is, and learn to express it appropriately and
assertively; 2) That inner strength, being something that Myers has
developed what he calls a Science around, he applies in his company Calm
Interventions Inc. and in his role as the World’s best Mediator, with regard to
helping others and; 3) An integral part of the Science is the understanding of
emotional abuse, its horrors, and in that regard an equal and opposite
direction, in terms of Myers’s commitment to decency.

17

While points one and two, provide some context, to the variety of
levels, in which Myers is developing this matter; it is the third element of
emotional/psychological abuse, emotional distress, and the pursuit of decency,
which is the focus of this Petition. The notion of compassion, accompanying a
genius in this situation is pertinent, in that Myers seeks restorative, rather
than punitive justice, or best, education as an end. Thus, it becomes
necessary to understand the Tort for the Intentional Infliction of Emotional
Distress. Myers avers said Tort is prescient in how it is written and not
window-dressing; indeed, it becomes a vital tool, in a society tht on some level
threatens to lose its decency, and moral bearings. Not to mention that the
particulars of this matter, match the parameters of the Tort, to make an
amazing example of how the Tort is relevant and need be interpreted.

As presently understood the elements of the Tort are:
1) The Defendant acted intentionally or recklessly.
2) Defendant’s conduct was extreme and outrageous.
3) Defendant’s act is the cause of the distress; and
4) Plaintiff suffers severe emotional distress as a result of the Defendant’s
conduct.
ADDING DEPTH TO THE UNDERSTANDING OF THE TORT FOR
THE INTENTIONAL INFLICTION OF EMOTIPONAL DISTRESS

18

The benefit to this Honorable Court and American courts of Myers’s
twenty four year odyssey through American courts and concomitant work, is
to have a firsthand survivor, who has gone the extra mile to develop, in his
view, a science of understanding on these issues. One notion is, that in
understanding the Tort on a deeper level, is to grasp the prescience of the
words themselves: “Intentional...” “Infliction...” “Emotional...” “Distress.” As
a product of his work, Myers adds understandings of these words relative to
the Tort for the Intentional Infliction of Emotional Distress.
•

Intentional: It is not universally understood the rise of people with
personality disordered behaviors, in the form of borderline, extreme
narcissistic and psychopathic. The basic parameters of society are
challenged, if not threatened in that there are people, occasionally in
positions4 of power, whose have a psychological disposition, if not “joy”
(sic) to cause pain to others. This premise is contrary to many, and surely
to the way Myers was raised. The notion of the common good,
commonwealth, public good, is undermined, by people whose deceitful
intention has precious little to do with the public good, and more so
involves the pursuit of personal gain at “others”5 expense. More pernicious
still, are those who, in a psychic sense raise their societal prominence, by
emotionally drawing blood from another, and falsely inflating their egos.

4 One occasion when Myers sought out emotional support from his parents, who had raised him in
benevolent fashion, Myers was told that was not our “position,” randomly by his biological mother.
5 Others too, is a relevant word, in that the vile communication to Nathan Myers to Myers around
December 2015, referred to “others” who share Nathan Myers vile view of Myers.
19

• “Inflict” “-Similarly to emotional tendencies to intentionally harm another;
are the follow, through to carry out this harm. The harm in an emotional
sense, is alarming. The possibility to cause pain, “severe” and beyond is
based on things such as: Emotional abuse, by definition, a profoundly
deceitful process, where the perpetrator(s) work to falsely define their
target. Like an iceberg, the target is kept below water, and the abuser(s)
stands above ground, posing to society that they are good and noble. The
phenomenon that there are people with psychological dispositions,
essentially aimed to cause pain, is a newer societal understanding. The
world of extreme narcissistic and emotionally psychopathic behavior poses
the biggest threat to common good, society and decency

• “Emotional” Some may scoff at the notion of emotional pain. However,
thinking about it, most experiences ultimately relate back to our
emotional state. It is not foreign to state that when our Founders wrote of
the right to “life, liberty and the pursuit of happiness;” that the last point
relates to our emotional state, even though the fields of psychology and
self-help were not then evident. Even more salient, is the notion of what
emotional abuse really is, the extremely pernicious nature of the assault.
Using the standard of the "pursuit of happiness, emotional abuse is an
assault on another person’s state of mind, and well-being. Not to diminish

20

the harm of any other form of abuse, such as sexual or physical for
instance; emotional/psychological abuse is especially “vile.”6
Emotional/psychological abuse has essentially one purpose: To inflict pain
on another, while falsely aggrandizing the standing of the perpetrator.
The pursuit of happiness standard is relevant, in that the perpetrator is
violating the mindset, and virtually the very soul and spirit of their
target. Adding substantially to this pain, is the sense that the
emotional/psychological abuser operates on the premise of deceit. What
unfolds is to create a false image of their target i.e. mentally disturbed,
destructive, lesser in some way; and then apply “leverage.”7 These notions
all get at the sense of an essentially unhealthy person, created a contrived
context, where they are able to assault another human being; in Myers’
instance, the perfect storm entailed the divorce setting, courts and
characters such as Nathan Myers and Stolzenberg, and the faulty
decisions being made by the biological parents in Scranton.

6 “vile” is a highly relevant word here; as the biological mother Sondra Myers of Scranton, PA,
penned a note to Myers in May, 2009, that used words to the effect: “even if we are the vile
{emphasis added} creatures that you say we are; why don’t you just move on with your life? Those
artfully sounding words, gloss over the heinous fact that Myers was essentially being asked to move
on from his very own children’s lives; as well as forfeiting his familial standing for no substantial
reason.
7 In one discussion with Attorney Michael Perry for the parents, Atty. Perry stated that Myers had
no “leverage.” Smashed was any familial sense, and in a Machiavellian sense, Myers’s only point of
entry to his deep-rooted family was ‘leverage.”
21

• “Distress” is the most perverse, even evil facet of the manifestations of the
Tort. The reason being that intentionally inflicting emotional distress is a
precisely targeted action. People with personality disorders have the
emotional equivalent of laser'guided radar, in determining points of
vulnerability for their target. As far as back as 1988, in Williams v.
Guzzardi 875 F. 2d 46, the Third Circuit Court of Appeals, even with a
sense of caution pertaining to the Tort and Pennsylvania Courts stated
that"... Courts have been more amendable to such claims when they
involve the special relationship between landlord and tenant or parents
and child.” Bradshaw v. General Motors. 805 F.2d 110* 114 (3rd Cir. 1986).
Further the Third Circuit continued: “Pennsylvania courts have also
indicated they will be more receptive when there is a continuing course of
conduct.” See Pierce v. Penman. 357 Super. 225.236. 515 A.2d-948. 853
(1986);
From both Massachusetts and Pennsylvania case law, there is significant
precedent, including but not limited to these types of points:
1. Emotional distress needs no accompanying physical harm.
2. It is a jury, or a commonsense perspective that can correctly determine
emotional distress.
3. Certain relationships, such as landlord-tenant or parent-child can
carry enhanced liability.

22

4. It is important to determine whether there is an ongoing course of
conduct.

THE EMOTIONAL BACKDROP TO MYERS’ SITUATION
Emotional distress varies from person-to-person; what is inordinately
distressful for one, may not be for another. For a stamp-collector to have a
lifetime of stamps ripped up, could be emotionally devastating; for an
individual to lose a stamp, could be inconsequential. It is not only the
circumstances, but the targeted assault on Myers’ mindset that is so evil and
devastating from an emotional standpoint. The fact that Myers has lived to
tell his story, cannot be held against him; it is rather a supreme
representation of the strength of commitment to his children, life, and
society.

Perverse is not a word used lightly. Such a designation is a product of
ongoing work over the course of a thirty-two-year period, in terms of
surviving, learning, and communicating such an understanding. There is no
way that what has happened, and importantly continues to happen to Myers,
could occur; unless there was a truly perverse mindset at root, of those
challenging and indeed, abusing Myers. Conventional arguments would
suggest that Myers is somehow at fault; that this must be relatively a 50-50
situation; even, Myers must be exaggerating. Encountering true emotional
23

abuse over such an extended period, smashes our societal understandings
and lays bare a world of truly deviant thinking, embodied perhaps for
starters in Nathan Myers, and permeating to a group for decades.
One facet of emotional abuse is that it is directly aimed at the mindset,
if not heart and soul of its target. Thus, virtually by definition,
emotional/psychological abuse is intentional. The perpetrators’ actions are
anchored in the direct intention of causing pain to another person.
Theories of the Tort for the Intentional Infliction of Emotional
Distress, some peripherally pertaining to the concept of "peculiar
susceptibility” accentuate the particular circumstances of the situation,
relative to assessing the “severity” of the harm. It is, indeed, the
circumstances of Myers’ situation that make the direct emotional abuse so
painful and distressing. Again, as a tip of the iceberg notion; it must be borne
in mind that Myers’s own parents have orchestrated a heinous campaign to
alienate and keep Sophie and Sam from Myers. Myers has not seen Sam in
eight years now; and Sophie, twice during that timeframe.8
The vicious tools of divorce currently allow alienation of children,
which is child abuse. Carried to an “extreme;” alienating a child, can amount
to a virtual kidnapping in slow motion. Against the backdrop that a jury is

8 The degree of love ongoing between Sophie and Sam, is evident in ongoing discreet communication,
as well as a profound act; that when Carney passed away in 2016, one of Sophie’s and Sam’s first
major acts was to purchase a condominium for Myers; who along with severe emotional distress, has
suffered unfathomable financial distress.
24

the ideal arbiter of emotional distress, imagine the emotional distress
engendered, when, as but one facet, a person’s children are being poisoned
against him, by his own parents, who are involved in deceit on this issue.
Even further exacerbated by the sense that Sophie’s and Sam’s mother,
Carney has passed away and that there is not an iota of consideration for the
notion of the harm'this situation is, on an ongoing basis causing to Sophie
and Sam, living without a loving and able father, who is being defamed.
So, the issue involving Sophie and Sam, is but the most potentially
piercing edge of the massive emotional dagger pointed at Myers, over the
course of thirty-two years. It makes sense to fill in the “mountain”9 or more of
animus behind the dagger to adequately understand how
emotional/psychological abuse percolates. Every form of abuse is a horror on
some level; sexual with its outrageous assumption of power and control by a
perpetrator; physical by inherent rages and sick notions of gaining
satisfaction, by pummeling another; yet perpetrators of
emotional/psychological abuse, are perverse, in terms of actually directing the
pain in their minds, towards the infliction of pain on another, because their
method is so purposeful and invisible.

9 Some ten years ago or so, Myers shared his story with a stem Air Force colonel, Senior Master level
chess player. When Myers described the situation, he referenced having a mountain of lemons, in
this situation. The colonel replied: “Mountain; you have enough lemons from here to the moon.” This
was ten years or so ago, before the situation has escalated and the crucible of abuse continued.
25

When a parent raises a child, with intensity, they formulate
impressions and an emotional imprint on the child. Indeed, this emotional
imprint was strict, with a moralistic sense of right and wrong; a certain level
of fear and arrogance instilled by the parents. Here, is part of the rub; Myers
being the basically good person that he his, which is evidence unto itself, took
the messages of the parents, to heart. Myers as, the first son, was continually
put out on the playing field of life and took the messages of the biological
parents to heart, with respect to helping the world.
To the degree that intentionally inflicting emotional distress is an
intentional act, it is clear thereby that knowing the psychological and
emotional make-up of a person would be a great (sic) weapon. No one would
intuitively know the emotional strengths and perceived weaknesses of
another person then one’s own family; The despicable variable being the
willingness to use an angle aimed to assault person’s perceived vulnerability.
Myers’s argument, building over the course of the past thirteen years,
legally, is that not only did the biological parents, perhaps incited by Nathan
Myers and Stolzenberg, know Myers’s perceived emotional vulnerabilities;
Nathan Myers is an “extremely” warped sense, thought that withholding
certain forms of appropriate affection and family standing would destroy
Myers, rather than strengthen him. The point was to gear “nearly” all
familial, social and group dynamics towards Myers’s jugular. Not only was
the behavior aimed at Myers’s emotional jugular; it was aimed viciously, if
26

not sadistically. And finally, not only were the actions aimed in a bloodthirsty
manner, the group dynamic was pointed at Myers’s perceived jugular for
thirty-two years now, emanating from Nathan Myers.
The key and even ground-breaking element of Myers’s work is the
notion that certain people, certain personality types, certain behaviors exist
expressly for the purpose of inflicting emotional harm on another human
being, either by direct intent or the related legal standard, of should have
known as much. This element shatters the world in which many of us grew
up, with respect to having mutuality10, “interdependence,” and commonality.
One of the arguments Myers is making is that this pattern of behavior is so
specious and disingenuous as to potentially by turning it around influence
the direction of the entire country. The combination of the length, intensity
and duration of the assault on Myers, Myers’s refusal to give up, the element
of the brand of prominence that the biological parents embrace, all point to
these sense that this is an event of Biblical proportions, The individuals may
not be evil, the collective actions reach that most extreme point. Courts by
allowing this pattern of behavior to proceed, are harming America. This
situation is potentially so significant in this way, affording a thirty-two-year
psychological persecution of Myers.

10 Exposing the sadistic nature of the dynamic directed at Myers; Sondra Myers, the biological
mother, is prominent in the city of Scranton, as an advocate and organizer of “Interdependence Day.”
These public words contrast with private actions that sincerely could maim, if not eviscerate her
innocent first son, over the course of thirty-two years, in ‘vile’ fashion.
27

The sickness emanates from a notion generated by Nathan Myers and
Stolzenberg evidently. That people could create a false, or even embellished
mindset is not extraordinary unto itself. What is alarming is precisely that
Nathan Myers and Stolzenberg could carry out this vengeance to such an
extreme. A key predicate of virtually the entire situation is that Nathan
Myers at root, knows that Myers is a good person; and thereby preys about
this basic goodness. Nathan Myers mistakes goodness for weakness.
It bears repeating that most of the tenor of this situation goes against
the grain of previous common understandings. Society must learn the
influence and behavior of personality-disordered thought processes. Bending
over to the maximum degree of compassion, Myers avers that it may be that
the element of personality-disorder, may mot be a function of eithef Nathan
Myers or Stolzenberg as individuals. The personality-disordered thought
process may be a function of their marriage and original connection.
Indeed, the biological parents, may be in such reactive mode, because
they are petrified that Nathan Myers and Stolzenberg would divorce, and
't

)

-

injure the parents’ image. While, this is a somewhat unenlightened
perspective in the first place; the notion that the extremity is engendered by
Nathan Myers and Stolzenberg’s marriage is a beneficial one. Rather than
believe that extremity, rage, and disorder are embedded in one of them,
winch would make rectification virtually impossible, it may be better to
proceed on the basis that there are profound misunderstandings and
28

exaggerations at the core of Nathan Myers’s and Stolzenberg’s psychological
perceptions, which have set off this unceasing emotional avalanche.
The optimistic view would allow for some disentanglement of the
nightmarish perspective that Nathan Myers and Stolzenberg have created in
this family. Nathan Myers is not the victim of “bad parents” and a “bully” for
a brother for instance. The perspective of Nathan Myers is fundamentally
exaggerated and even if it were true, which it is not; the degree of rage that
Nathan Myers carries forward, is outside the bounds of a “civilized
community.” While, Myers is less familiar with Stolzenberg’s background, he
is aware that Stolzenberg’s parents went through a challenging divorce in her
childhood; that there were indicators of mental health challenges, and indeed
that Stolzenberg herself is carrying forth vestiges of her childhood past, in
wantonly casting emotionally violent assaults on Myers, his role as a father,
and in effect, the family.

THE PERFECT STORM
Prior to the passing of Gelb, the biological parents, reluctantly related
with the Kleins and did so with virtual disdain. As Nathan Myers will recall,
the refrain relating to the feelings of the biological parents, with virtually
everyone, parents, brothers, sisters was uniformly: “We do not like each
other.” Though the parents were focused in the raising of Myers and Nathan
Myers, with a sense of commitment.

29

Thus, the first thirty years of Myers’s life were turned on their head, in
terms of loyalty. Now rather than words like: “blood ain’t mud” and “the
acorn does not fall far from the tree” defining family dynamics, a rancid
mindset had begun to grip the family. The seeming lies at the root of the Gelb
estate, and the ensuing cover-up took precedence over everything else.
Adding fuel to the situation was a temporary separation that Myers
and Carney experienced, also in 1988. With this separation it was like the
emotional bottom fell out of the family system. Myers had been at each of his
grandparents fiftieth year anniversaries, and divorce was not something that,
in the main happened in their family. That Carney would, with virtually no
notice depart the marriage in a mysterious way, caused emotional whiplash
and a vast change ini dynamics.
Into this void, Nathan Myers rushed in, as if to alleviate bis lifetime,
evidently of rages towards his older brother. Nathan Myers in pathetic
fashion, raced into Myers’s life from 3000 miles away, and zero positive
interaction on Nathan Myers’ part, and began making random allegations
about Myers, mainly about his mental health. These allegations were beyond
baseless and were repudiated overwhelmingly by a therapist within twentyfour hours of Nathan Myers’s sabotage attack on Myers.
Still, given the coalescence of three strains: Carney’s evident irrational
behavior, the conspiracy around the Gelb estate and Nathan Myers’s
perverse foray; created an emotional tornado was created, one sole purpose:
30

To attack, condemn and denigrate Myers. While there is no rational basis for
such a thing; it was the convening of these three vastly different strains,
producing a volatile chemical-like reaction. For instance, it made no sense for
the biological parents to join against Myers, other than to be stampeded in
some way by Nathan Myers and Stolzenberg, and maybe more so, conniving
in the conspiracy around the passing of Morris Gelb. Even on the latter,
point, it made no sense, as Myers had no interest in challenging anything
around the estate. It is a function of guilty people, ultimately leading people
to their misbehavior, by virtue of their guilt and fear of being caught.
What stands out among these three diverse, if not acting in a perverse
energy, is the “ludicrous” Calculation to coalesce their energy into an
emotional assault on Myers. The wanton assault on Myers, is a function of
our modern society, although perhaps age-old, in terms of rage. This situation
is a key learning point for society, in terms of the motivations of people. In
this regard Stolzenberg stands out.
Myers first met Stolzenberg, along with Nathan Myers in 1981/82 in
Somerville, MA, when the latter couple paid a social call on Myers. Nathan
Myers later related that Stolzenberg, was the first to see “genius” in Myers,
even comparing his, to his then Grandfather Morris B. Gelb of Scranton. Still,
Stolzenberg could not have clout in this situation, without the access

11 Ludicrous is a word flung at Myers, by Nathan Myers at one point. If there ever was a situation
where the person pointing the finger had three fingers pointing back at himself, Nathan Myers
would be the poster child for that adage.
31

provided by Nathan Myers. What is fascinating about this situation is the
degree to which Nathan Myers contaminated group dynamics for forty years.
This is a case study, regarding the effect of an individual on a group.
While, Myers has brought forth issues in more modern form; the elements of
hatred, jealousy and even rage are as old as time. Nathan Myers has
concocted ed through his own personality disorder issues, his collaboration
with Stolzenberg, and even with narcissistic influence of Sondra Myers,
and/or some combination thereof, a life-time type of vengeance towards
Myers that has grabbed hold of group dynamics for thirty-two years now.
To accurately assess what Myers is averring, this Honorable Court
must understand that a prison-like psychological state has been created
around Myers’s life. Perhaps perceived as bizarre and yet true, Myers in most
recent court filing to the Massachusetts Supreme Judicial Court, which
accepted it as a reconsideration of Myers’ Application for FAR, drew the
analogy that what was being done to his life, had similarities to the heinous
maze created by Ariel Castro in Cleveland. Emotional/psychological abuse
can reach that extreme and yes outrageous a proportion.
This is where, Myers is breaking ground in the understanding of
emotional/psychological abuse. If a person, or in this case, an unrelenting
mob, assaults a person at a certain place or angle in one’s mental or
emotional state, you can immobilize and even imprison a person. Recall, the
analogy, if one is to rip-up the stamps of a life-long stamp collector, the pain
32

that would be produced. Inspired, perhaps by Nathan Myers, the group over
the course of twenty-four years in its most vicious form is attacking Myers, at
those things he historically cherishes most.
What the group in unrelenting form, has denied Myers is any foothold
in his own deep-rooted family. The group has assaulted Myers’s relationship
with his own children, and worked feverishly to alienate Myers’s children
from him, and taint their minds. Obscenely, with ramifications on every level
of Myers’s life, the group has created an outrageously false statement about
Myers and his well-being. That false characterization then is used as a
specious psychological hatchet with his children, people in Scranton, and in
Myers’s home base in Massachusetts.
It is an emotional evisceration of another person, and to comport with
the Tort for the Intentional Infliction of Emotional Distress, it is directly
intentional. That is the beauty, creatively speaking, albeit emotionally a
horror of what Myers is saying; there are people in the culture whose primary
purpose, underneath the veneer is to create emotional distress in others. The
lack of a spiritual base, and by spiritual Myers means, anything remotely
positive and respecting of larger influences than just our own thought, leaves
people with an emptiness, who use others for their own means. It is a
dynamic that must be halted.
THE CAUSE FOR INTERVENTION OF THE UNITED STATES
SUPREME COURT
33

The degree of deceit in this thirty-year episode is so monumental that Myers
sincerely believes that reversing the circumstances of this situation, can
reverse the degree of hatred and vitriol in the United States of America.
When you have a group of people, in Myers’ family of origin, based in
Scranton, PA, adjoined by Nathan Myers and Stolzenberg of Los Angeles, and
others turn towards another in savage and irrational hatred to another
human being for decades; and then purport noble causes; society itself, is
injured. Most behavior, even bad behavior is not evil, Myers would most are
good; and evil is a special form of bad that Myers is describing the
indescribable, even if the road is “rambling” as the trial court Judge said.
As the Pennsylvania Supreme Court in Kazatskv v. King David
Memorial Park 515 Pa. 183 527 A 2d. 988, 994-995 (Pa. 1987) opined in
beginning to define outrageousness relative to emotional distress: “The term
outrageousness is neither value free nor exacting. It does not objectively
describe an act or a series of acts; rather it represents an evaluation of
behavior.” Similarly, the term “evil” is not a random description, merely
pointing out, when human beings have erred, as we are want to do. Evil is
precisely an intentional act. Evil mainly either by intention or should have
known better, exacts more pain than is necessary, specifically in a sadistic
sense. Evil is not a person, needing good, robbing a store; evil goes out of the
way to engender pain.

34

Our emotional composition begins strongly in our childhood, our
precepts, our framework, our understanding. To be clear, like Bartholomew
Cubbins, in the Dr. Seuss book, referenced at the beginning; this situation
was truly an aberrant happenstance in human behavior. Myers prefers to
believe that none of the parties from his parents surely, to Nathan Myers, to
Stolzenberg sought to be evil. It is a misnomer to assume that evil cannot
occur, by little bits of indifference and hate piled on top of another. As a
current saying goes: “No snowflake in an avalanche feels responsible.”
Still, what is Myers to do, withstanding thirty-two years of unbridled
vengeful actions, and still desiring to hold together a true framework for this
family. Myers believes, that he came from a good, if not special growing
environment in Scranton; and it would be destructive to devolve into the
behaviors directed at him, not just for his sake, but for truth, and any
rational parties’ sake. A specific instance itself, this Honorable Court will be
hard to find, a comparable situation of wanton animus directed at another
human being, for thirty-two years, for in the end, essentially no reason
whatsoever. Such a happenstance is indeed a moral stain on the universe as
noted by the Massachusetts Court of Appeals. Myers was not even heard
there, or even at the trial court. The moral stain is so rancid, it must be
corrected, and Myers heard.
It is sensible to connect Myers’s efforts to historic efforts of Justice
Ruth Bader Ginsburg, Justice Clarence Thomas, and Justice Brett
35

Kavanaugh as those who overcame supreme obstacles to reach this highest
appointment. It is cogent to relate Myers’s efforts to the cause of social and
racial justice in today’s society. For one, Myers has an entrenched sense of
stopping all abuse, deterring hatred, and providing for decency and equality
for all. Two, like Joseph in the Bible, Myers was pushed into an abyss of
American life. With twin horrors of extreme narcissistic behavior on the part
of this family, and the shortcomings of American divorce system and facets of
courts, the elements of life, liberty and the pursuit of happiness were run
over figuratively like a truck. Myers does not know everything but knows,
legal shortcomings aside, this case and his life have the capacity to improve
American society at a time, such consistent philosophy is desperately needed.
n, against him, while the children’s mother died in 2016!

THE CASE FOR DECENCY: HOW THIS SITUATION SAVES
THE AMERICAN MINDSET: A BIBLICAL LEVEL STORY
It is the astonishing compilation of circumstances that makes this
saga so extraordinary. For one, that Myers was born into a
situation in Scranton, PA, within a six-block area, four
grandparents, parents, grade school and Temple, imbued with a
sense that “blood ain’t mud.” Myers’s father Morey travelled to the
36

South, in the days of Martin Luther King Jr, to work for civil
rights, a quality passed onto Myers. Then to be thrown into the
maelstrom of Massachusetts courts, with his family siding against
him, observing the desecration of basic American principles, of
equality and fairness, rammed down his throat for twenty-four
years. A loving and able father, Myers has through a despicable
mindset been kept from his own children for a decade or more,
with zero thought as to the consequences to Myers or emotionally
to Sophie and Sam.
Beginning twenty-four years ago, it gave Myers the
opportunity to stand for real for American ideals. Ideals of
fairness, equality and even compassion. Those years forged in
Myers deep qualities of care, to discover true strength resides in
our goodness. Having withstood unfathomable emotional pressure
from parents, family, high-powered attorneys, courts and more;
Myers sees a mission for himself to educate and encourage society
into a much more positive direction. American needs this true
reform; the challenges in our courts are terrible. Courts stand at
the epicenter of what is America, and if courts do not fairly and
37

impartially represent truth and equality for black, white, woman,
man, gay, straight, and so on; then America threatens to become
meaningless.

In a loving sense Myers’s saga, no matter how legally
imperfect, not matter how challenging to understand, offers
opportunity for all good-minded people. An issue with courts these
days, is a massive fear of acknowledging their errors and
humanness. To not embrace imperfection and unduly set oneself
as godly, is vengeful to the human spirit. The loss in pride courts
could suffer by ruling for Myers, is understood. Still the vision is
that America can peacefully and constructively begin the rightful
trek back or forward to “liberty and justice for all.”

CONCLUSION
It cannot be overstated the fragile spiritual state that America finds
itself in these days. The rise to defeat racism is real, and it goes beyond that.

38

Psychologically the true issue is the defeat of all false forms of superiority,
the likes of which, Stolzenberg and Nathan Myers brought forth in
bloodthirsty fashion in this situation. Courts are not observers; they are
aniong the most valuable members of a free and open society. From this
moment, courts must repudiate every iota of unfairness, corruption, and
arrogance. Instead those American ideals of fairness and equality, must be
fundamentally implanted on the moral fabric of our country.
Myers has not seen his loving son, in eight and a half years, his loving
daughter twice during that time; their mother died four and a half years ago.
There is a heinous hatred functioning in America, working its way into our
precious institutions. In the trial court, no opposition was filed, and Myers
was not heard. In the Appeals Court, no opposition was filed, and Myers was
not heard. At the MA Supreme Judicial Court, no opposition was filed, and
Myers was not heard. To abuse another human being, and prevent a voice is
horrific. Let the Supreme Court of the United States of America stand for
decency, and afford Myers a hearing, in its own august chambers and/or
order it to be done urgently. Basic human decency is at stake generally in the
United States, as is an understanding of emotional abuse and the Tort for the
Intentional Infliction of Emotional Distress as a societal advancement.
Myers PRAYS for positive resolution for family, himself and courts.

39

Respectfully Submitted,
.;

r r

Jon Myers
209 Rdverview Avenue
Auburndale, MA 02466
617-899-0383
ion@ca1m interventions. com
, r

■

.

40

TABLE OF CONTENTS—APPENDIX
DENIAL OF RECONSIDERATION FAR—MASSACHUSETTS
1
SUPREME JUDICAL COURT
DENIAL OF FAR—MASSACHUSETTS SUPREME JUDICIAL
2
COURT
MASSACHUSETTS APPEALS COURT DENIAL

2

SUPPLEMENTAL APPENDIX—THE TWENTY-FOUR YEAR
LEGAL TRAIL, OF WHICH THIS IS A RESPONSE................. 6
CARNEY’S LEGAL ASSAULT ON MYERS........................ 6
MYERS BEGINS TO RESPOND IN MASSACHUSETTS AND
PENNSYLVANIA
6
PENNSYLVANIA SUPREME COURT MAL-145

8

MORE DETAIL ON MASSACHUSETTS MATTERS,
INCLUDING JUDGE DENNIS J. CURRAN’S STRIKING
DEFENSE OF INDIVIDUAL RIGHTS................................. 9

